   December 7, 2005




Financial Management

Defense Finance and Accounting
Service Corporate Database User
Access Controls
(D-2006-033)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
ACL                   Access Control List
BEIS                  Business Enterprise Information Services
CEFT                  Corporate Electronic Funds Transfer
DCD                   Defense Finance and Accounting Service Corporate Database
DCII                  Defense Finance and Accounting Service Corporate Information
                       Infrastructure
DFAS                  Defense Finance and Accounting Service
                            INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704




                                                                      December 7,2005
MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
SUBJECT: Report on Defense Finance and Accounting Service Corporate Database User
         Access Controls (Report No. D-2006-033)

       We are providing this report for your information and use. We considered
management comments on a draft of this report in preparing the final report. The
comments conformed to the requirements of DoD Directive 7650.3 and left no
unresolved issues. Therefore, no additional comments are required.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Carmelo G. Ventimiglia at (317) 510-3855 (DSN 699-3855) or Mr. Jack L.
Armstrong at (3 17) 5 10-3846 (DSN 699-3846). For the report distribution, see
Appendix B. The team members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:




                                      kssistant inspector General
                                      Defense Financial Auditing
                                                Service
                Department of Defense Office of Inspector General
Report No. D-2006-033                                                   December 7, 2005
   (Project No. D2005-D000FI-0052.000)

       Defense Finance and Accounting Service Corporate Database
                          User Access Controls

                                  Executive Summary

Who Should Read This Report and Why? This report should be read by all Defense
Finance and Accounting Service (DFAS) personnel with information assurance
responsibilities and by all personnel assigned to the DFAS Corporate Database Project
Management Office. The report identifies an internal control weakness involving the
DFAS Corporate Database and suggests methods for improving user access security.

Background. This is the first in a series of reports related to our audit of the compilation
process for financial reporting for the Army General Fund. It discusses the internal
controls over DFAS Corporate Database user access. The DFAS Corporate Database
will process accounting and financial information for various DoD Components. DFAS
planned to start using the DFAS Corporate Database to process information for the
compilation of the FY 2005 Army General Fund financial reports. However, a problem
with establishing beginning account balances has caused system implementation to slip
into FY 2006.

Data within the DFAS Corporate Database are segregated into various database tables. A
database table is a single store of related information. Information assurance personnel
assign user access roles that limit users’ access to the database tables and system
capabilities. For instance, users can be assigned database view and edit (write and delete
information) capabilities. As of April 15, 2005, there were 2,323 user accounts that
could access data stored in the DFAS Corporate Database tables. The user accounts were
assigned by DFAS business or operational areas. Vender Pay Services, Travel Pay
Services, and Army Accounting Services are the three business areas that use the
Corporate Electronic Funds Transfer and Army accounting database tables. These
database tables contain information regarding DoD financial transactions, including
sensitive financial and tax information for 339,000 DoD contractors and 3.5 million DoD
employees.

Results. DFAS internal controls over access to corporate electronic funds transfer and
Army accounting data processed by the DFAS Corporate Database were not adequate.
Specifically:

       •   inactive user accounts were not deactivated when DFAS Corporate Database
           access was no longer needed, and

       •   users were assigned edit capability although they did not need it to perform
           their duties.

As a result, the risk of misuse of sensitive information, such as bank routing and account
numbers, was increased. The Director of DFAS should revise the “System Access
Control Policy and Standard Operating Procedures for DFAS Acquisition Management
Organization” to require that functional information owners and supervisors certify that
the monthly access control list has been reviewed and used to identify and deactivate
inactive user accounts.

The Director should also require that functional information owners forward the
certifications to the Business Enterprise Information System Production Support Office
and review job responsibilities to ensure that user access to the DFAS Corporate
Database is appropriately limited. In addition, the Director should require that user
access to the DFAS Corporate Database be reported as a material internal control
weakness until corrective actions have been taken and verified. (See the Finding section
of the report for the detailed recommendations.)

Management Comments. The Component Acquisition Executive of Defense Finance
and Accounting Service concurred with the recommendations and stated that the next
version of the “System Access Control Policy and Standard Operating Procedures for
DFAS Acquisition Management Organization” will require that functional information
owners and supervisors certify the review of the monthly access control list. Functional
information owners will also be required to forward the list to the Business Enterprise
Information Services Production Support Office and maintain electronic evidence of the
certification. He also stated that functional information owners will be directed to
perform a one-time review of all job responsibilities, and DFAS will validate compliance
with user access controls during preparation of the FY 2006 Annual Statement of
Assurance. (See the Finding section of the report for a discussion of management
comments and the Management Comments section of the report for the complete text of
the comments.)




                                            ii
Table of Contents

Executive Summary                              i

Background                                    1

Objective                                     3

Managers’ Internal Control Program            3

Finding
     System User Access Controls              4

Appendixes
     A. Scope and Methodology                  9
         Prior Coverage                       10
     B. Report Distribution                   11

Management Comments
     Defense Finance and Accounting Service   13
Background
          This is the first in a series of reports related to the audit of the compilation process
          for financial reporting for the Army General Fund. This report addresses access
          authorization to Defense Finance and Accounting Service (DFAS) Corporate
          Database (DCD). DCD is one of the systems that DFAS plans to use for
          compiling Army General Fund budget reports and financial statements. DFAS
          initially planned to use DCD to process information for the compilation of the
          FY 2005 Army General Fund financial reports. However, a problem with
          establishing beginning account balances caused the implementation to slip into
          FY 2006.

          Department of Defense Business Enterprise Information Services. DCD is
          part of the DoD Business Enterprise Information Services (BEIS), which builds
          upon existing infrastructure to provide timely, accurate, and reliable business
          information from across DoD to support auditable financial statements. BEIS
          replaces the DFAS Corporate Information Infrastructure (DCII). DCII was the
          initial DFAS attempt to consolidate finance and accounting into a single,
          integrated financial management system.

          The DCD Project Management Office is responsible for developing DCD. When
          fully implemented, DCD will make DoD Component accounting and finance
          information available to multiple users and applications at the same time.
          Approximately 80 percent of the financial information processed in DCD will
          originate from feeder systems, 1 and the remainder will originate from DFAS
          systems. DCD will eliminate multiple databases and the inefficiencies and
          reconciliation processes that can result when data are passed back and forth
          between information systems.

          System Access Administration. Data within DCD are segregated into various
          database tables. A database table is a single store of related information. DCD
          information assurance personnel use Oracle internal role-based security to control
          user access to the database tables. DCD information assurance personnel assign
          user access roles that limit users’access to the database tables and functions.
          Users' roles are associated with job responsibilities that are contained in the job
          responsibility matrix. For example, the “GET_AY_GEN_FUND” database role
          is associated with the Army General Fund job responsibility. The Army General
          Fund job responsibility provides access to specific database tables and functional
          capabilities to edit (write and delete information) the data contained in those
          tables. The April 26, 2005, job responsibility matrix had 65 job responsibilities.
          Users can be assigned database view and edit capabilities. User access should be
          restricted to the minimum necessary to conduct business.

          As of April 15, 2005, there were 2,323 user accounts that could access data stored
          in the DCD database tables. The user accounts were assigned by DFAS business

1
    Feeder systems are information systems, such as Standard Finance System and Standard Operation
    Maintenance Army Research and Development System, which transfer accounting data into DCD from
    field accounting activities.



                                                  1
           or operational areas. Vender Pay Services, Travel Pay Services, and Army
           Accounting Services are the business areas that use the corporate electronic funds
           transfer (CEFT) and Army accounting database tables. As of April 15, 2005,
           2,271 user accounts had access to CEFT and Army accounting database tables.

           Information Assurance Policy. DoD Instruction 8500.2, “Information
           Assurance (IA) Implementation,” February 6, 2003, implements policy, assigns
           responsibilities, and prescribes procedures for the protection of DoD information
           systems. DoD Instruction 8500.2 requires that information assurance personnel
           establish and manage authorized user accounts for DoD information systems.
           This requirement includes deactivating user accounts when the user no longer
           needs access to DoD information systems.

           “System Access Control Policy and Standard Operating Procedures for DFAS
           Corporate Information Infrastructure,” November 2003, (DFAS policy) 2
           implements DoD Instruction 8500.2 and provides instructions for managing
           system access for DCD. DFAS supervisors, functional information owners, 3 and
           the BEIS Production Support Office 4 personnel have responsibilities for
           controlling user access to DCD. The DFAS policy requires the following.

                   •    User access will be limited to those who need to know and limited to
                        information needed to perform assigned duties.

                   •    The BEIS Production Support Office will maintain an access control
                        list (ACL) of all user accounts to include the user’s full name, the
                        assigned database role, and the date the system was last accessed, and
                        provide the ACL to the functional information owners and terminal
                        access security officers.

                   •    Functional information owners, who serve as the data stewards for the
                        information in DCD that directly supports their business operations,
                        will approve new users and identify the appropriate database roles
                        assigned to each user. Functional information owners are also
                        responsible for auditing user accounts against assigned roles.

                   •    DFAS supervisors will review the ACL to ensure departed personnel
                        have been removed and to account for each name within their division.

                   •    Terminal area security officers, who serve as the focal points for local
                        terminal security matters, along with the functional information
                        owners, will notify the BEIS Production Support Office to terminate a
                        user’s account immediately upon the user’s retirement, departure, or
                        promotion.



2
    Superseded by DFAS “System Access Control Policy and Standard Operating Procedures for DFAS
    Acquisition Management Organization,” July 21, 2005.
3
    Functional information owners were previously known as functional data owners.
4
    The BEIS Production Support Office was previously known as the DCII Production Support Office.



                                                     2
Objective
    The overall audit objective was to determine whether the internal controls over
    the financial information processed by DCD and the Defense Departmental
    Reporting System-Budgetary were adequate for Army General Fund financial
    reporting. This report discusses the internal controls over user access to DCD and
    includes the results of our review of the Management Control Program as it
    relates to user access to DCD. We plan to issue another report addressing the
    overall control environment of DCD and the Defense Departmental Reporting
    System-Budgetary. See Appendix A for a discussion of the scope and
    methodology and for prior coverage related to the objective.


Managers’ Internal Control Program
    We identified a material internal control weakness for DFAS as defined by
    DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996. DFAS internal controls were not adequate to ensure that
    information assurance personnel deactivated user accounts when DCD access was
    no longer required. Recommendations 1. and 2., when implemented, will correct
    the identified weaknesses and result in improved access controls over sensitive
    DCD data. In addition, the DCD Project Management Office did not identify user
    access as an internal control weakness in its FY 2005 Annual Statement of
    Assurance dated June 14, 2005. The Finding section of this report discusses the
    details of the internal control weakness and the adequacy of management’s self-
    evaluation process. A copy of the report will be provided to the senior official
    responsible for the Internal Control Program at DFAS.




                                        3
           System User Access Controls
           DFAS internal controls over access were not adequate to protect CEFT
           and Army accounting data processed in DCD. Specifically:

                  •     terminal area support officers and functional information
                        owners did not notify the BEIS Production Support Office to
                        deactivate inactive user accounts when DCD access was no
                        longer needed, and

                  •     functional information owners assigned edit capability to users
                        who did not need it to perform their duties.

           This occurred because procedures used for controlling access to the DCD
           did not ensure that DFAS personnel complied with DoD information
           assurance requirements and DFAS policy. As a result, the lack of
           adequate controls increased the risk of misuse of sensitive information,
           such as bank routing and account numbers.


Inactive User Accounts
    Unneeded User Accounts. DCD information assurance personnel did not follow
    DFAS policy to deactivate user accounts with access to DCD CEFT and Army
    accounting data when users no longer needed access. Of the 2,271 user accounts
    on the CEFT and Army accounting ACLs, 585 (25.8 percent) had not accessed
    DCD since December 31, 2004. Of the 585 inactive user accounts, we
    judgmentally sampled 214 user accounts for current or former DFAS personnel.
    The following table shows the results of our validation of the need for those 214
    users to access DCD.



                         Table. Validation of DFAS User Accounts

                                         CEFT      Army         Total     Percentage
            Determination                         Accountin                of Total
                                                     g
        No longer DFAS employees          19           9          28         13.1

        Required access                   26          17          43         20.1

        No longer required access         41          46          87         40.7

        Did not respond to inquiries      38          18          56         26.1
                      Total               124         90         214         100.0



                                          4
DFAS Human Resources personnel determined that 28 of the 214 personnel with
inactive user accounts either no longer worked at DFAS or were taking extended
leave without pay. We attempted to contact the remaining 186 DFAS personnel
with inactive user accounts to determine if they still needed DCD access. Of the
186 users, 43 responded that they still needed access, while 87 responded that
they no longer needed access. The remaining 56 personnel did not respond to our
inquiries. A total of 115 (87 who no longer required access plus 28 who are no
longer active DFAS employees) user accounts remained active longer than
necessary. Of these 115 user accounts, 61 (6-CEFT and 55-Army accounting)
had the ability to edit data.

Deactivation Procedures. DFAS needs to improve its internal controls to ensure
that inactive user accounts are promptly deactivated and monthly ACLs are
routinely provided to DFAS supervisors and functional information owners as
required by DFAS policy. DFAS policy did not contain sufficient controls to
ensure that information assurance personnel took appropriate action to deactivate
inactive user accounts.

        Deactivating Inactive User Accounts. The CEFT functional information
owner did not correctly deactivate inactive user accounts. Rather than request the
BEIS Production Support Office to deactivate unneeded user accounts, the CEFT
functional information owner removed all permissions except the “DCII User”
role. The CEFT functional information owner stated that it was easier to
reactivate access to DCD if the “DCII User” role was retained. However, the
CEFT functional information owner was not aware that the “DCII User” role
allowed users to view accounting data within the DCD database tables.

        Access Control List. DFAS supervisors, functional information owners,
and terminal area security officers did not always request that the BEIS
Production Support Office deactivate inactive user accounts. The information in
the table illustrates that DFAS personnel were not adequately following DFAS
policy to identify and request deactivation of inactive user accounts. A
contributing factor was that the BEIS Production Support Office did not provide a
monthly ACL to DFAS supervisors and functional information owners as
required by DFAS policy. The CEFT functional information owner received an
ACL dated March 15, 2005, but had not received a list for the previous 6 months.
Other functional information owners had not received monthly ACLs for at least
1 year. Because the functional information owners and DFAS supervisors did not
receive the monthly ACLs, they did not have important information necessary to
identify and to deactivate inactive user accounts.

        DFAS Deactivation Policy. DFAS did not establish sufficient controls to
ensure that information assurance personnel took appropriate action to deactivate
inactive user accounts. Specifically, the DFAS policy did not require that:

       •   supervisors and functional information owners certify that they
           reviewed the monthly ACLs and requested that the BEIS Production
           Support Office deactivate inactive user accounts,




                                    5
            •   supervisors and functional information owners provide the certified
                monthly ACLs to the BEIS Production Support Office, and

            •   the BEIS Production Support Office retain copies of the certified
                ACLs.


User Edit Capabilities
     The functional information owner assigned Army accounting users edit capability
     that was not commensurate with their duties. The ACL dated April 15, 2005, had
     482 users with Army General Fund job responsibility. Between April 17, and
     August 11, 2005, the Army accounting functional information owner removed
     edit capabilities for 464 of the users. One user had edit capability from
     January 10, 2003. Of the 464 users, 403 had edit capability removed on May 10,
     and May 11, 2005. Only 18 users were left with edit capabilities.

     The Army accounting functional information owner did not ensure that users were
     assigned edit responsibility in accordance with DFAS policy. DFAS should
     perform a one-time review of all the job responsibilities for DCD to ensure that
     edit capabilities are assigned only to those who need it to perform their duties.
     The Army General Fund job responsibility is only 1 of the 65 job responsibilities
     with access to Army accounting data in DCD.


System Vulnerabilities
     DCD access controls did not comply with DoD Instruction 8500.2, increasing the
     risk that sensitive information would be misused. Unnecessary access to the
     database tables provides users an opportunity to make unauthorized changes to
     accounts and files, or to use sensitive information to perpetrate financial fraud or
     other abuse. The DCD contains sensitive financial and tax information for
     339,000 DoD contractors and 3.5 million DoD employees. Through DCD, users
     have access to sensitive accounting data, and vendor and employee tax
     identification numbers, bank routing and account numbers, names, addresses, and
     phone numbers.


Management Actions
     On July 21, 2005, DFAS issued revised policy on access controls titled “DFAS
     System Access Control Policy and Standard Operating Procedures for DFAS
     Acquisition Management Organization.” The revised policy addresses controls
     for all DFAS-owned financial management systems. The policy did not include
     our recommendation that functional information owners and supervisors certify
     that the monthly ACL has been reviewed and that they forward the certifications
     to the BEIS Production Support Office. In addition, the revised policy did not
     require that the BEIS Production Support Office retain evidence of certifications.


                                          6
    On May 20, 2005, the DCD Project Management Office initiated a system change
    request, titled “CSF IA Policy Deactivate Users Inactive for 120 Days,” for DCD
    that will improve user access controls. The DCD will be reprogrammed to
    automatically notify functional information owners when user accounts have not
    been used for 60 days. If the account remains inactive for a total of 90 days, the
    system will automatically deactivate the user account. The DCD Project
    Management Office originally planned to execute the system change request in
    July 2005; however, the system change request was implemented
    September 19, 2005.

    We provided the CEFT functional information owner with the names of
    employees who had departed DFAS or had been reassigned. The BEIS
    Production Support Office deactivated those inactive user accounts.


Adequacy of Management’s Self-Evaluation
    The FY 2005 self-evaluation of internal controls prepared by the DCD Project
    Management Office did not identify and report DCD user access as an internal
    control weakness. The DCD Project Management Office had been identified as
    the assessable unit; however, DCD access controls had not been assessed since
    July 2003, when the management self-evaluation was first prepared. At that time,
    DCD was still in the system development test phase and the internal controls were
    being initially established. The DCD Project Management Office has included an
    assessment of internal controls over DCD access in its FY 2005 self-evaluation;
    however, it did not report DCD access as a material internal control weakness in
    its FY 2005 Annual Statement of Assurance. The June 14, 2005, transmittal
    memorandum stated that the evaluation did not identify any material weaknesses
    although the self-evaluation indicated that the system change would not be
    implemented until September 2005.

    The DCD Project Management Office has responsibility for reporting DCD user
    access as a material weakness because it is identified as the assessable unit.
    However, the DCD Project Management Office does not have the authority to
    ensure that DFAS supervisors and functional information owners comply with
    user access policy because this is a DFAS management issue. Until the
    recommendations in this report have been implemented and the internal control
    weakness has been corrected, DFAS should report DCD access as a material
    internal control weakness in the Annual Statement of Assurance.




                                        7
Recommendations, Management Comments, and Audit
  Response
    We recommend that the Director of Defense Finance and Accounting
    Service:

    1. Revise the “System Access Control Policy and Standard Operating
    Procedures for DFAS Acquisition Management Organization” to require
    that:

           a. Functional information owners and supervisors certify that the
    monthly access control list has been reviewed and that action has been taken
    to deactivate user accounts no longer needed.
          b. Functional information owners forward the certifications to the
    Business Enterprise Information Services Production Support Office.

           c. The Business Enterprise Information Services Production Support
    Office maintains evidence of the certifications.

    Management Comments. The Component Acquisition Executive at DFAS
    concurred and stated that DFAS will revise procedures to require that functional
    information owners certify that they have reviewed the monthly access control
    list, forward certifications to the Production Support Office, and maintain
    evidence of the certifications.

    Audit Response. The DFAS comments are responsive. The updated procedures
    will require functional information owners, instead of the BEIS Production
    Support Office, to maintain electronic evidence of certifications. This action
    meets the intent of the recommendation.

    2. Require that the functional information owners perform a one-time
    review of all job responsibilities to ensure that user access is restricted to the
    minimum necessary to conduct business.
    Management Comments. The Component Acquisition Executive at DFAS
    concurred and stated that functional information owners will be directed to
    perform a one-time review of all job responsibilities to ensure that user access is
    restricted to the minimum necessary to conduct business.

    3. Report user access to the Defense Finance and Accounting Service
    Corporate Database as a material internal control weakness in the Annual
    Statement of Assurance until Recommendations 1. and 2. have been
    implemented and it has been verified that the weakness has been corrected.

    Management Comments. The Component Acquisition Executive at DFAS
    concurred and stated that the actions taken in response to Recommendations 1.
    and 2. have corrected the material internal control weakness. He stated that
    DFAS will validate compliance with the recommendations during preparation of
    the FY 2006 Annual Statement of Assurance.


                                          8
Appendix A. Scope and Methodology
   We reviewed the internal controls for deactivating user accounts when the user no
   longer needed to access DCD. We reviewed the CEFT ACL as of March 15,
   2005, and the Army accounting ACL as of April 15, 2005. These two ACLs
   listed 2,271 (97.8 percent) of the 2,323 total DCD user accounts as of
   April 15, 2005, that could access the CEFT and Army accounting data. We
   identified 585 users with access to the CEFT and Army accounting database
   tables that had not accessed the DCD since December 31, 2004. Of these
   585 users, we judgmentally sampled 214 current and former DFAS employees to
   determine if they required access to the system. Of the 214 users, 186 had DFAS
   email accounts. We attempted to contact the 186 users with DFAS email
   accounts. For the 28 users without DFAS email accounts, DFAS Human
   Resources personnel determined that 27 users were former DFAS employees and
   1 user was on extended leave without pay.

   We reviewed the Army General Fund job responsibility to determine if view and
   edit capabilities were properly assigned to users. The Army General Fund job
   responsibility was 1 of 65 reported on the April 26, 2005, Job Responsibility
   Matrix. We selected Army General Fund job responsibility because it accounted
   for 482 (88.3 percent) of the 546 user accounts with access to Army accounting
   data as of April 15, 2005.

   We also reviewed DFAS policies on information assurance and determined
   whether DFAS procedures complied with DoD requirements. We also discussed
   procedures for assigning access capabilities and identifying and deactivating
   inactive user accounts with DFAS supervisors, BEIS Production Support Office
   personnel, DCD Project Management Office personnel, and functional
   information owners.

   We performed this audit from October 2004 through September 2005 in
   accordance with generally accepted government auditing standards.

   Use of Computer-Processed Data. We relied on the CEFT and Army
   accounting ACLs generated by BEIS Production Support Office to identify users
   who had not accessed DCD since December 31, 2004. We used other information
   to determine if personnel with inactive user accounts needed access to DCD.
   Because we only relied on the computer-processed data to determine if inactive
   user accounts existed, we did not perform detailed tests to confirm the reliability
   of the computer-processed data. Nothing came to our attention as a result of
   specific procedures that caused us to doubt the reliability of the computer-
   processed data.
   Management Control Program. DoD Directive 5010.38, “Management Control
   (MC) Program,” August 26, 1996, and DoD Instruction 5010.40, require DoD
   organizations to implement a comprehensive system of management (internal)
   controls that provides reasonable assurance that programs are operating as
   intended and to evaluate the adequacy of the controls. We evaluated the DFAS
   internal controls over user access to DCD. Specifically, we reviewed procedures



                                        9
      that DFAS used to assign access responsibilities to users and to deactivate users
      who no longer required access to DCD. We also reviewed the adequacy of
      management’s self-evaluation of those controls.

      Government Accountability Office High-Risk Area. The Government
      Accountability Office (GAO) has identified several high-risk areas in DoD. This
      report provides coverage of the Financial Management high-risk area.


Prior Coverage
      During the last 5 years, the GAO and the Department of Defense Inspector
      General (DoD IG) have issued three reports discussing the DCD. Unrestricted
      GAO reports can be accessed over the Internet at http://www.gao.gov.
      Unrestricted DoD IG reports can be accessed at
      http://www.dodig.mil/audit/reports.

GAO
      GAO-03-465, “DoD Business System Modernization, Continued Investment in
      Key Accounting Systems Needs to be Justified,” March 28, 2003

DoD IG
      DoD IG Report No. D-2002-014, “Development of Defense Finance and
      Accounting Service Corporate Database and Other Financial Management
      Systems,” November 7, 2001

      DoD IG Report No. D-2001-030, “Oversight of Defense Finance and Accounting
      Service Corporate Database Development,” December 28, 2000




                                          10
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget


Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform



                                          11
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        12
Defense Finance and Accounting Service
Comments




                      13
14
15
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Carmelo G. Ventimiglia
Jack L. Armstrong
Mark A. Ives
John T. Ferguson
